®tetrtct of Columbia
Court of Appeals;
Nos. 19-CF-687 & 19-CO-1172

p

L LEF

ip

NOV 10 2020
DISTRICT OF COLUMBIA
COURT OF APPEALS

BRIAN E. MOORE,
Appellant,
v.

2018 CF3 11411

UNITED STATES,
• Appellee.
BEFORE:

Thompson and Beckwith, Associate Judges, and Nebeker, Senior
Judge.
ORDER

On consideration of appellant’s renewed motion for release pending appeal in
Appeal No. 19-CF-687, appellee’s opposition and reply thereto, and appellee’s
motion for extension of time to file its brief, and the records on appeal, and it
appearing that appellant filed Appeal No. 19-CO-1172 from an order denying his
pro se motion for release pending appeal and that a new motion was filed and
considered by the trial court and the same issues have been raised on direct appeal,
it is
ORDERED that appellant’s renewed motion for release pending appeal is
denied. Generally, a convicted offender is detained pending appeal unless the trial
court finds “by clear and convincing evidence that (1) the person is not likely to flee
or pose a danger to any other person or the property of others, and (2) the appeal..
. raises a substantial question of law or fact likely to result in a reversal or an order
for new trial.” D.C. Code § 23-1325(c) (2012 Repl.). Appellant’s contention that
he would not pose a danger or flight risk if released is unsupported in light of his
extensive criminal history indicating a pattern of failing to appear in court, violating
court orders, obstructing justice, and assaultive and threatening conduct. It is
FURTHER ORDERED that these appeals are hereby severed for all purposes.
It is
FURTHER ORDERED that appeal no. 19-CO-l 172 is dismissed as moot. It
is

¥

Nos. 19-CF-687 & 19-CO-1172
FURTHER ORDERED that appellee’s motion for extension of time is
granted and it shall file its brief within 30 days from the date of this order.
PER CURIAM
Copies e-served:
Honorable Milton C. Lee
Director, Criminal Division
Sean R. Day, Esquire
Elizabeth Trosman, Esquire
Assistant United States Attorney
cml

4 PX 10

©(strict of CotumMa
Court of
No. 19-CF-687

% I L
JAN 29 2021
DISTRICT OF COLUMBIA
COURT OF APPEALS

BRIAN E. MOORE,
Appellant,
v.

2018 CF3 11411

UNITED STATES,
Appellee.
BEFORE:

Thompson and Beckwith, Associate Judges, and Nebeker, Senior
Judge.
ORDER

On consideration of appellant’s motion to reconsider the denial of his motion
for release pending appeal wherein counsel requests that -the court consider
appellant’s lodged pro se filings that request to stay issuance of the mandate, an
extensi on of time for rshearing, and to reconsider the denial of his motion for release
pending appeal en banc, and to consider new circumstances because of COVED-19,
it is

ORDERED that appellant’s motion to reconsider the denial of his motion for
release pending appeal is denied. Appellant has not presented a basis for the court
to reconsider the November 10,2020, order. To the extent appellant pro se requested
to stay the mandate pursuant to D.C. App. R. 41(d) and for en banc consideration
pursuant to D.C. App. R. 35, the November 10,2020, order did not resolve the appeal
and thus those rules are inapplicable. To the extent appellant pro se seeks to
introduce new facts concerning the conditions 'where he is incarcerated or the
existence of COVID-19, those issues should be addressed to the trial court in a
motion filed pursuant to D.C. Code § 24-403.04(a).
PER CURIAM

No. 19-CF-687
Copies e-served:
Sean R. Day, Esquire
Elizabeth Trosman, Esquire
Assistant United States Attorney
cml

